October 14, 2021

Mr. Scott S. Harris
Office of the Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re: Hawkins v. Haaland, No. 21-520
Blanket Consent Letter
Dear Mr. Harris
By this letter, Petitioners Gerald H. Hawkins, et al., consent, in accordance with
Supreme Court Rule 37.2(a), to the filing of any and all amicus briefs in connection
with the Court’s review of the pending Petition for Writ of Certiorari in this matter.
Sincerely,

Damien M. Schiff
Counsel of Record for Petitioners
cc: All Counsel

